Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Amtrak Police Department 

Report No. GR-70-02-002
 
July  2002

Office of the Inspector General

EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Amtrak Police Department (Amtrak).  The purpose of these grants was to enhance community policing.  Amtrak was awarded a total of $1,189,770 to hire 10 new police officers and redeploy the equivalent of 17.6 existing full-time police officers from administrative duties to community policing.
We found Amtrak to be in material non-compliance with COPS's grant requirements.  We reviewed Amtrak's compliance with six essential grant conditions, including budgeting for local officer positions, hiring of additional officers, local match requirements, reimbursement requests, retention of officers, and the types of community policing activities that were being performed.  We found weaknesses in two of the areas tested:  hiring of additional officers and retention of officers.  As a result of the deficiencies identified below, we question $750,000 in grant funds received.1 

Amtrak did not hire and maintain the required number of additional officers.  Amtrak's total number of sworn officers fell below required levels for 22 months during the grant funding period.
Amtrak did not retain the grant positions because it did not hire and maintain the required number of additional officers during the grant period.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for a definition of questioned costs.